           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       THE SOCIAL SECURITY
        ADMINISTRATION’S
    COMPLIANCE WITH EMPLOYEE
        TAX REQUIREMENTS

    April 2007   A-03-06-16062




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      April 6, 2007                                                                  Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Compliance with Employee Tax Requirements
           (A-03-06-16062)


           OBJECTIVE

           Our objective was to determine if the Social Security Administration (SSA) is
           appropriately paying and reporting employment taxes to the Internal Revenue Service
           (IRS).

           BACKGROUND

           In June 2005, the IRS requested that each Federal Office of Inspector General
           determine whether its parent agency is complying with Federal tax laws. Federal
           agencies are subject to the same requirements as all other employers. The Internal
           Revenue Code requires employers to pay employment taxes on wages and to report
           wages and certain other payments on various IRS forms. Federal employment taxes
           include withholdings related to Federal income, Social Security, and Medicare taxes.
           Employers are required to make deposits of employment taxes on a daily, weekly, or
           semi-weekly schedule depending upon the amount of tax they accumulate for deposits.

           Employers are also required to file Forms 941, Employer’s Quarterly Federal Tax
           Return, reporting liability for withholdings related to Federal income, Social Security,
                                                       1
           and Medicare taxes on a quarterly basis. In addition, as part of the Annual Wage
           Reporting (AWR) process, employers are required to file Forms W-3, Transmittal of
           Wage and Tax Statement, with SSA along with copies of Forms W-2, Wage and Tax
           Statement, for all




           1
            IRS Publication 15, Circular E, Employers Tax Guide, Revised January 2004, Section 12 - Filing Form
           941. See Appendix B for a copy of the Form 941.
Page 2 - The Commissioner


of their employees. 2 Employees must complete Forms W-4, Employee’s Withholding
Allowance Certificate, so the employer can withhold the correct Federal income tax
                3
from their pay.

Processing SSA’s Payroll

Beginning with Tax Year (TY) 1998, the Department of Interior’s (DOI) National
Business Center (NBC) started processing SSA’s payroll through its Federal Personnel
Payroll System (FPPS). 4 For TY 2004, SSA was among 35 Federal entities receiving
personnel and payroll services from NBC. 5 As SSA’s payroll provider, NBC is
responsible for calculating applicable Federal, State, and local income tax withholdings
as well as Social Security and Medicare taxes based on the information entered into
FPPS by SSA staff. NBC is also responsible for preparing the quarterly Forms 941 and
annual Forms W-3 and W-2 for all its clients and providing year-end interface files
containing wage and tax data to its clients. 6 When reporting tax information to the IRS,
NBC combines wage and tax information for its clients and reports it under a single
Employment Identification Number (EIN). 7

SCOPE AND METHODOLOGY

Our audit focused on Federal employment taxes paid to the IRS on behalf of SSA
employees. We reviewed personnel, payroll, and other financial records related to
SSA’s employees for TY 2004 to determine whether the appropriate amount of Federal
employment taxes were paid to the IRS. We provide a full description of the scope and
methodology and the sampling methodology in Appendices F and G.




2
    Program Operations Manual System, RM 01101.003 - Employer Wage Reporting.
3
  Employees can file Forms W-4 at any time to adjust their tax withholdings. See Appendix C for a copy of
the Form W-4.
4
 FPPS is a mainframe-based, on-line, and real time personnel and payroll system. The system provides
personnel and payroll support to numerous Federal entities, servicing over 200,000 accounts.
5
    See Appendix D for a listing of the 35 Federal entities.
6
  NBC uses the FEDTAX II system, which facilitates the electronic payment of Federal taxes by Federal
clients. FEDTAX II also enables Federal entities to transmit the Form 941s to the IRS electronically.
7
    A detail description and flowchart of the payroll process is included in Appendix E.
Page 3 - The Commissioner


RESULTS OF REVIEW
In general, our review found during TY 2004 DOI appropriately withheld and deposited
Federal employment taxes for SSA employees. We found DOI properly deposited
approximately $856 million related to withholdings for Federal income, Social Security,
and Medicare taxes to the IRS on behalf of SSA employees in TY 2004. Moreover, we
reviewed 100 sample employee records to ensure correct amounts of Federal income,
Social Security taxes, and Medicare taxes were withheld from the sample employees’
pay. We found DOI withheld the proper amount of Federal employment taxes from
employees’ pay.

EMPLOYMENT TAXES ON WAGES

Our review found DOI appropriately deposited approximately $856 million in Federal
employment taxes to the IRS on behalf of SSA employees in TY 2004. As stated
previously, employers are required to deposit Federal income taxes withheld and the
employer and employee portions of the Social Security and Medicare taxes. The
deposits should be made on a daily, weekly, or semi-weekly schedule depending on the
                                                          8
amount of taxes the employer accumulates for deposits. Our review of deposit
confirmations for TY 2004 showed DOI deposited about $2.4 billion in Federal
employment taxes to the IRS for 35 Federal entities. 9 In our review of the DOI’s
Federal Tax Pay Period Collection Reports and supporting schedules, 10 used by DOI to
calculate the deposit amounts, we determined SSA’s portion of the $2.4 billion tax
                                                    11
liability totaled about $856 million, or 36 percent. A breakout of the $856 million in
Federal employment taxes is shown in the following figure.




8
 IRS Publication 15, Circular E, Employers Tax Guide, Revised January 2004, Section 11 - When to
Deposit.
9
  While the IRS is in fact being credited with the amount of the tax payments, funds never actually pass
through the banking system. Instead, FEDTAX II creates a debit voucher for each Agency Location
Code/EIN having reported Federal tax payments for a given day. A deposit ticket, summarizing the total
payments made for a given day is created for the IRS. The debit voucher and deposit ticket information is
reported to Treasury through CA$HLINK II, which results in an accounting entry into the central accounting
system of the United States.
10
   The Federal Tax Pay Period Collection Report is generated from FPPS and summarizes the Federal tax
liability amount for each DOI client. DOI provided us with copies of this report as well as supporting
schedules for SSA. DOI did not provide us with copies for the reports and supporting schedules for the
other 34 Federal entities because the documents included sensitive tax data.
11
  Our review of SSA records showed DOI initially submitted 205,997 W-2s for 35 entities, of which
70,638 W-2s (34 percent) related to SSA employees.
Page 4 - The Commissioner


                              Federal Employment Tax Deposits for SSA
                                             (TY 2004)



                                  $110 million,
                                     13%



                      $245 million,                                        $501 million,
                         29%                                                  58%




                     Federal Income Withholdings   Social Security Taxes      Medicare Taxes



To determine whether the $856 million in employment taxes for SSA appeared
reasonable, we reviewed the Forms W-2 data reported to SSA as part of the AWR
process. Our comparison showed the tax deposits totaled approximately
$855,704,000 in employment taxes while Forms W-2 totaled about $855,748,000, a
difference of about $44,000. The $44,000 difference primarily related to credits
received from the IRS for prior year adjustments for Social Security and Medicare
taxes. As a result, we believe DOI paid the appropriate amount of employment taxes to
the IRS for SSA employees later reported through the AWR process.

EMPLOYMENT TAX WITHHOLDINGS

Based on our review of personnel and payroll records for 100 sample SSA employees
in TY 2004, we found DOI withheld the proper amount of Federal employment taxes
from the employees' pay. We performed this test to ensure DOI accurately computed
the employment tax withholdings. Our review of the personnel and payroll records for
the 100 sample employees—50 employees who submitted Forms W-4 12 in TY 2004
and 50 employees who did not request a change to their Federal withholdings—showed
               13
the following:

•     Sample Employees with Forms W-4. The 50 sample employees submitted a total
      of 85 Forms W-4 14 during TY 2004 that were processed by SSA Personnel Offices




12
   The employee completes the Form W-4 so the employer can withhold the correct Federal income tax
from their pay. Employees have an option to complete a manual or electronic version of the Form.
13
     See Appendix G for a full description of the sampling methodology.
14
     The 50 sample employees submitted 1 to 11 Forms W-4 during TY 2004.
Page 5 - The Commissioner


     or through Employee Express, 15 which is an automated system that allows Federal
     employees to make discretionary changes to their payroll records. 16 Based on our
     review of the Forms W-4 and the employees’ FPPS records, we found SSA properly
     processed the 85 requests by entering the correct withholdings data into FPPS.
     Furthermore, to determine if DOI withheld the proper amount of employment taxes
     from the sample employees’ pay, we calculated the withholding amounts of Federal
     income, Social Security, and Medicare taxes 17 for all 50 employees and compared
     the calculated amounts to the employment tax withholdings shown in the
     employees’ FPPS records. 18 We found in all 50 cases, the amounts agreed.

•    Sample Employees without Forms W-4. For the 50 sample employees who did
     not submit Forms W-4 during TY 2004, we calculated the withholding amounts of
     Federal income, Social Security, and Medicare taxes for the last pay period in
     TY 2004 and compared the calculated amounts to the amount of employment tax
     withholdings shown in the employees’ payroll record. Again, we found the amounts
     agreed.

CONCLUSION

Our review did not disclose any material discrepancies with the amount of Federal
employment taxes withheld and deposited for SSA employees in TY 2004. We found
DOI properly deposited approximately $856 million in employment taxes to the IRS for
SSA employees during the period reviewed. Furthermore, we found DOI withheld the
correct amounts of Federal income, Social Security and Medicare taxes from SSA
employees’ wages during the period.




15
   Employee Express is an on-line self-serve program that allows Federal employees to effect certain
changes to their payroll/personnel data. Changes made through Employees Express are electronically
transmitted to FPPS to update the employees’ payroll/personnel records.
16
  Of the 50 sample employees, we found 14 submitted a manual Form W-4, while 36 employees
submitted an electronic Form W-4 through Employee Express.
17
  We used IRS Publication 15, Circular E, Employers Tax Guide, to calculate the amount of Federal
income, Social Security, and Medicare withholdings. We used the Percentage Method to calculate the
Federal income tax withholdings because it can be used for any number of allowances claimed by the
employee on the Form W-4 and any amount of wages. To calculate the Social Security and Medicare
taxes, we used the employee tax rates of 6.2 percent and 1.45 percent, respectively.
18
  DOI uses a commercial tax package to compute taxes shown in FPPS. The software is a subprogram
that interfaces with most payroll systems to calculate U.S. and Canadian payroll withholding taxes.
Page 6 - The Commissioner


AGENCY COMMENTS
SSA did not have any specific comments to the draft report. The full text of the
Agency’s memorandum is included in Appendix I.




                                               Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Form 941 Employer’s Quarterly Federal Tax Return

APPENDIX C – Form W-4 Employee’s Withholding Allowance Certificate

APPENDIX D – Listing of Federal Entities

APPENDIX E – Description of SSA’s Payroll Process

APPENDIX F – Scope and Methodology

APPENDIX G – Sampling Methodology

APPENDIX H – Annual Wage Reporting Reconciliation

APPENDIX I – Agency Comments

APPENDIX J – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
AWR             Annual Wage Reporting
DOI             Department of Interior
EIN             Employer Identification Number
FPPS            Federal Personnel and Payroll System
HRMIS           Human Resource Management Information System
IRS             Internal Revenue Service
MTAS            Mainframe Time and Attendance System
NBC             National Business Center
OIG             Office of the Inspector General
SSA             Social Security Administration
TY              Tax Year


Forms/Numbers
Form 941        Employer’s Quarterly Federal Tax Return
Form W-2        Wage and Tax Statement
Form W-3        Transmittal of Wage and Tax Statements
Form W-4        Employee’s Withholding Allowance Certificate
SF-50           Notification of Personnel Action
SF-52           A Request for Personnel Action
                                   Appendix B

Form 941 Employer’s Quarterly Federal Tax
Return
                                 Appendix C

Form W-4 Employee’s Withholding Allowance
Certificate




                    C-1
C-2
                                                                     Appendix D

Listing of Federal Entities
In Tax Year (TY) 1998, the Department of Interior’s National Business Center (NBC)
started processing Social Security Administration’s (SSA) payroll through its Federal
Personnel Payroll System. As shown below, SSA was among 35 Federal entities
receiving personnel and payroll services from NBC in TY 2004.

      1       Advisory Council Historic Preservation
      2       African Development Foundation
      3       Arctic Research Commission
      4       Chemical Safety and Hazard Investigation Board
      5       Commission of Fine Arts
      6       Consumer Product Safety Commission
      7       Department of Education
      8       Department of the Interior
      9       Department of Transportation
     10       Equal Employment Opportunity Commission
     11       Executive Residence/White House
     12       Federal Labor Relations Authority
     13       Federal Trade Commission
     14       Harry S. Truman Scholarship Foundation
     15       Inter-American Foundation
     16       James Madison Memorial Fellowship Foundation
     17       Millennium Challenge Corporation
     18       National Aeronautics and Space Administration
     19       National Commission on Libraries and Information Science
     20       National Labor Relations Board
     21       National Science Foundation
     22       National Transportation Safety Board
     23       Nuclear Regulatory Commission
     24       Office of Navajo Hopi Indian Relocation
     25       Overseas Private Investment Corporation
     26       Pension Benefit Guaranty Corporation
     27       Presidio Trust
     28       Securities and Exchange Commission
     29       Selective Service System
     30       Social Security Administration
     31       Trade and Development Agency
     32       United States Holocaust Memorial Museum
     33       United States International Trade Commission
     34       Utah Reclamation Mitigation Conservation Commission
     35       Valles Caldera Trust
                                                                                   Appendix E

Description of SSA’s Payroll Process
When a new Social Security Administration (SSA) employee is hired, he or she must
complete a Form W-4, Employee’s Withholding Allowance Certificate, so the correct
amount of Federal income tax can be withheld from the wages. A SSA Human
Resource Specialist enters into the Department of Interior’s (DOI) Federal Personnel
and Payroll System (FPPS), the complete personnel record for the employee, including
the job title, Social Security number, grade and salary, number of allowances (via Form
W-4), and full or part-time status. A Standard Form 52, Request for Personnel Action,
and Standard Form 50, Notification of Personnel Action, are processed by DOI’s FPPS.
DOI in turn sends SSA an electronic file to update SSA’s Human Resources
                                             1
Management Information System (HRMIS).

At the end of each pay period, SSA enters the employee’s time and leave data into its
Mainframe Time and Attendance System (MTAS). 2 The data is then electronically
transmitted to FPPS to generate the employee’s pay. DOI uses a commercial tax
package to calculate the applicable Federal, State and local taxes. 3 During this
process the FPPS master payroll record is updated and FPPS produces an accounting
feeder file for the current pay period for SSA employees as well as a Leave and
Earnings Statement for each employee. The payroll data is then transmitted
electronically by DOI to the Department of Treasury for disbursement. The Department
of Treasury transmits direct deposit data to the Federal Reserve, which in turn transmits
direct deposit data to various banks nationwide. This data serves as the basis for the
issuance of payroll checks and direct deposit payments to SSA employees.

At the completion of the pay period, DOI uses FEDTAX II to deposit Federal
employment taxes withheld from employee wages to the Internal Revenue Service
(IRS). The Federal employment taxes include Federal income, Social Security and
Medicare taxes. DOI reports this data to the IRS at the aggregate level for 35 Federal
entities under a single Employer Identification Number. On a quarterly basis, DOI
prepares the Form 941, Employer’s Quarterly Federal Tax Return, to report the liability

1
  HRMIS is a computer-based, multi-file personnel records system designed to meet SSA’s needs for
data, statistics, and information on the characteristics of SSA’s workforce. HRMIS serves as the database
for SSA staffing, promotion plan operations, personnel research and program evaluation, equal
opportunity statistics, management information, planning and budgeting for training, internal and external
reporting, and position control.
2
 MTAS is a computerized system for processing pay and leave data pertaining to SSA employees. MTAS
allows timekeepers to record time and attendance information indicating the number of hours an
employee has worked each day and the hours the employee has been absent.
3
  DOI uses a commercial tax package to compute taxes shown in FPPS. The software is a subprogram
that interfaces with most payroll systems to calculate U.S. and Canadian payroll withholding taxes.



                                                   E-1
for the Federal employment taxes for its 35 Federal clients. The Forms 941 are
transmitted electronically to the IRS via FEDTAX II. By January 31st of the following
year, DOI generates from FPPS the Forms W-2, Wage and Tax Statements and sends
copies of the forms to each employee and to SSA as part of the Annual Wage
Reporting (AWR) process.

Each year, SSA performs the AWR reconciliation, which is a process that compares the
Social Security and Medicare wage information employers report to SSA (via Forms
W-2), and the IRS (via the Forms 941) to ensure the amounts balance. When more
wages are reported to the IRS than to SSA, SSA is concerned that employees' earnings
are not recorded correctly in the Agency's records. SSA examines these cases and
attempts to resolve any difference without contacting the employer. When this effort is
unsuccessful, SSA sends a notice to the employer, requesting information to resolve
the case. If SSA does not receive a response within 45 days, the employer is sent a
second notice. When no response is received after the second notice, the IRS is
responsible for contacting the employer and may impose penalties, if necessary. When
more wages are reported to SSA than to the IRS, the IRS investigates these cases
                                                          4
because they could represent unpaid employment taxes. A flowchart of the payroll
process follows:




4
    SSA, Program Operations Manual System, RM 02070.001 SSA/IRS Reconciliation Process.



                                                 E-2
Flowchart of Payroll Process
                                Start
                                                                     SSA’s
                                                                    HRMIS




                        Employee Completes
                          IRS Form W-4


                               DOI’s
                               FPPS


                                                                     SSA’s
                                                                     MTAS




                                IRS
   Transmit Pay to                                   AWR             Form W-2
                        Employment Taxes &
 Treasury Department                              Reconciliation   Employee & SSA
                       Form 941 via FEDTAX II



           Paycheck                                                   End
              to
           Employee




                                                E-3
         End
                                                                                Appendix F

Scope and Methodology
To accomplish our objective, we:

•   Reviewed prior Social Security Administration (SSA) Office of the Inspector General
    reports, as well as Government Accountability Office and Treasury Inspector
    General for Tax Administration reviews, related to reporting of employment taxes.

•   Reviewed applicable Internal Revenue Service (IRS) regulations and circulars.

•   We limited the scope of our review based on prior audit work conducted by
    independent auditors:

     SSA’s independent auditors performed internal control testing during Fiscal Year
      2005 to determine whether: (1) procedures related to payroll, specifically new
      hires, were in place and operating effectively; and (2) SSA new hire information
      in the Human Resource Management Information System was reconciled to the
      Department of Interior’s (DOI) Federal Personnel and Payroll System (FPPS).

     DOI’s independent auditors performed internal control testing to evaluate the
      reliability of the employee withholdings and employer contributions reported in
      DOI and SSA’s Reports of Withholdings and Contributions for Retirement,
      Health Benefits, and Life Insurance for 3 pay periods in Tax Year (TY) 2004.

     DOI’s independent auditors tested controls and operational effectiveness of
      DOI’s FPPS. The scope of the review covered October 1, 2004 to July 31,
      2005.

•   Met with staff at SSA and DOI to gain an understanding of the payroll process.

•   Reviewed copies of the TY 2004 Forms 941, Employer’s Quarterly Federal Tax
    Return, DOI submitted to the IRS.

•   Reviewed the Federal Tax Pay Period Collection Reports generated from FPPS
    and supporting schedules for SSA employees. 1




1
  The Federal Tax Pay Period Collection report is generated from FPPS and summarizes the Federal tax
liability amount for each DOI client.



                                                 F-1
•      Reviewed copies of the TY 2004 deposit confirmations generated from the FEDTAX
       II system. 2

•      Reviewed the results from the TY 2004 Annual Wage Reporting reconciliation. As
       part of the reconciliation process, SSA compares Social Security and Medicare
       wage information employers report to SSA and the IRS via the Forms W-2, Wage
       and Tax Statements, and the Forms 941. 3

•      Obtained a listing from DOI’s FPPS of SSA employees who were in pay status
       during TY 2004.

•      Obtained from DOI, a listing of SSA employees who submitted either paper or
       electronic Forms W-4, Employee’s Withholding Allowance Certificate, during
       TY 2004. We requested and reviewed leave and earnings statements from FPPS
       for 100 sample employees and compared this information to the actual Forms W-4.
       The Forms W-4 were provided by the relevant SSA Servicing Personnel Office.
       See Appendix G for our sample methodology.

We determined the data used in our audit work was sufficiently reliable to meet the
audit objectives. We conducted our audit work from April 2006 to January 2007 in
Philadelphia, Pennsylvania. The SSA entity reviewed was the Center for Personnel
Management Information Systems and Payroll within the office of the Deputy
Commissioner for Human Resources. We conducted our audit in accordance with
generally accepted government auditing standards.




2
  NBC uses the FEDTAX II system, which facilitates the electronic payment of Federal taxes by Federal
clients. FEDTAX II also enables federal entities to electronically sign and transmit to the IRS the Form
941, Employer's Quarterly Federal Tax Return.
3
    SSA, Program Operations Manual System, RM 02070.001- SSA/IRS Reconciliation Process.



                                                   F-2
                                                                               Appendix G

Sampling Methodology
For Tax Year (TY) 2004, we obtained a listing of Social Security Administration (SSA)
employees from the Department of Interior’s Federal Personnel Payroll System
(FFPS). 1 The listing included 70,537 SSA employees who were in active status
anytime during TY 2004. To focus our analysis better, we divided the population into
two groups:

•   The first group consisted of 12,709 employees who submitted Internal Revenue
    Service (IRS) Forms W-4, 2 Employee’s Withholding Allowance Certificate, during
    TY 2004. We randomly selected 50 employees from this group. We reviewed their
    FPPS records for the pay period prior to the effective date of the Form W-4 and the
    pay period immediately following to determine if SSA correctly processed the
    Forms W-4. 3 Further, we calculated the withholding amounts of Federal income,
    Social Security, and Medicare taxes for the applicable pay periods to determine
    whether the correct amounts of Federal employment taxes were withheld from their
         4
    pay.

•   The second group consisted of 57,828 employees who did not submit Forms W-4
    during TY 2004. We randomly selected 50 sample employees from this group and
    reviewed their first and last payroll records during TY 2004 to determine if there
    were any changes in the amount of Federal income taxes withheld. Further, we
    calculated the withholding amounts of Federal income, Social Security, and
    Medicare taxes for the last pay period in TY 2004 to determine whether the correct
    amounts of Federal employment taxes were withheld from their pay.



1
 FPPS is a mainframe-based, on-line, and real time personnel and payroll system. The system provides
personnel and payroll support to numerous Federal entities, servicing over 200,000 accounts.
2
  The employee completes the Form W-4 so the employer can withhold the correct Federal income tax
from their pay. Employees can file Forms W-4 at any time to adjust their tax withholdings. Federal
employees have an option to complete manual or electronic versions of Form W-4. Employees access
the electronic version of Form W-4 through Employee Express, an automated system that Federal
employees can use to make changes to their personnel and payroll records.
3
 Of the 50 sample employees, we found 14 submitted manual Forms W-4 while 36 employees submitted
electronic Forms W-4 through Employee Express.
4
  We used IRS Publication 15, Circular E, Employers Tax Guide, to calculate the amount of Federal
income, Social Security, and Medicare withholdings. We used the Percentage Method to calculate the
Federal income withholdings because it can be used for any number of allowances claimed by the
employee on the Form W-4 and any amount of wages. To calculate the Social Security and Medicare
taxes, we used the employee tax rates of 6.2 percent and 1.45 percent, respectively.
                                                                                    Appendix H

Annual Wage Reporting Reconciliation
In our review of the Social Security Administration’s (SSA) Tax Year (TY) 2004 Annual
Wage Reporting (AWR) reconciliation, we found the Department of Interior (DOI) may
have underreported Social Security and Medicare wages totaling $230,000 on the
Form 941, Employer’s Quarterly Tax Return. While the $230,000 represents a
relatively small percentage (.001 percent) of the reported Social Security and Medicare
wages reported during TY 2004 for all 35 Federal entities, we believe it is incumbent
upon DOI to ensure that it accurately reports wage and tax information to both SSA and
the Internal Revenue Service (IRS). Under the current AWR reconciliation process, this
wage difference is a matter to be resolved between DOI and the IRS.

RECONCILIATION PROCESS

As part of the AWR reconciliation process, SSA compares the Social Security and
Medicare wages employers report to SSA and the IRS to ensure the amounts balance.
This process can identify instances where employers may have under/over-reported the
amount of Social Security and Medicare wages, which could result in an under/over-
reporting of employment taxes. As of January 2007, the TY 2004 reconciliation showed
DOI may have underreported about $230,000 in Social Security and Medicare wages to
the IRS (see table below). We determined the underreported wages could potentially
represent approximately $22,500 in unpaid employment taxes. We were not able to
conclude whether the underreported wages related to SSA because the amounts were
reported at the aggregate level for 35 Federal entities and we did not have access to
records for the other 34 entities. 1

                              TY 2004 SSA/IRS Reconciliation
                          Social Security
        Agency               Wages         Medicare Wages                            Total
                                                                              $16,396,332,850.7
     IRS                 $6,098,775,621.19         $10,297,557,229.51                         0
                                                                              $16,396,563,234.6
     SSA                 $6,098,942,040.93         $10,297,621,193.71                         4
     Difference              ($166,419.74)               ($63,964.20)             ($230,383.94)
     Taxes                    ($20,636.05)                 ($1,854.96)             ($22,491.01)




1
  This difference of approximately $230,000 is not the same as the $44,000 difference cited in the body of
the report related to SSA’s employee tax deposits. This earlier difference was simply an adjustment to
earlier tax years and did not relate to TY 2004 tax liabilities.



                                                   H-1
The IRS investigates the discrepancy when higher Social Security and Medicare wages
are reported to SSA than to the IRS. 2 According to DOI staff, they made attempts to
resolve the discrepancies by submitting three corrected Forms 941 to the IRS from
June 2005 to October 2006. Furthermore, we found as of August 2006, DOI submitted
numerous corrected Forms W-2 to SSA that adjusted the wage amounts.




2
  When more wages are reported to the IRS than to SSA, SSA is concerned that employees' earnings are
not recorded correctly in the Agency's records. SSA examines these cases and attempts to resolve any
difference without contacting the employer. When this effort is unsuccessful, SSA sends notices to the
employer, requesting information to resolve the case. If SSA does not receive a response to the notices,
the case is referred to the IRS and they may impose penalties, if necessary.



                                                  H-2
                  Appendix I

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      March 30, 2007                                                          Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/

Subject:   Office of the Inspector General (OIG) Draft Report, "The Social Security Administration’s
           (SSA) Compliance with Employee Tax Requirements" (A-03-06-16062) -- INFORMATION


           We appreciate OIG’s efforts in conducting this review. We are pleased that this review found
           our Agency to be within full compliance with regulations regarding employee tax requirements
           and payroll procedures. In addition, the review did not disclose any material discrepancies with
           the amount of taxes deposited with the Internal Revenue Service for SSA employees during the
           review periods and found the Department of Interior is properly withholding Federal employment
           taxes for Agency employees.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, on extension 54636.
                                                                      Appendix J

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Philadelphia Audit Division, (215) 597-4080

   Cylinda McCloud-Keal, Audit Manager, (215) 597-0572

Acknowledgments

In addition to those named above:

   Frank Trzaska, Auditor-in-Charge

   Damon Mahoner, Auditor

   Mildred Soto, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-03-06-16062.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
